<html>
<title> - THE NEXT GENERATION NUCLEAR PLANT AND HYDROGEN PRODUCTION: A CRITICAL STATUS REPORT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
 THE NEXT GENERATION NUCLEAR PLANT AND HYDROGEN PRODUCTION: A CRITICAL 
                             STATUS REPORT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ENERGY AND RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

                           Serial No. 109-261

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-218 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                  Subcommittee on Energy and Resources

                 DARRELL E. ISSA, California, Chairman
LYNN A. WESTMORELAND, Georgia        DIANE E. WATSON, California
JOHN M. McHUGH, New York             BRIAN HIGGINS, New York
PATRICK T. McHENRY, North Carolina   TOM LANTOS, California
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
BRIAN P. BILBRAY, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Lawrence J. Brady, Staff Director
              Dave Solan, Ph.D., Professional Staff Member
                          Lori Gavaghan, Clerk
           Shaun Garrison, Minority Professional Staff Member


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2006...............................     1
Statement of:
    Wells, Jim, Director, Natural Resources and the Environment, 
      Government Accountability Office; Phil Hildebrandt, Idaho 
      National Laboratory, special assistant to the Laboratory 
      Director; and Andrew Kadak, professor, Nuclear Science and 
      Engineering Department, Massachusetts Institute of 
      Technology.................................................    20
        Hildebrandt, Phil........................................    40
        Kadak, Andrew............................................    47
        Wells, Jim...............................................    20
Letters, statements, etc., submitted for the record by:
    Hildebrandt, Phil, Idaho National Laboratory, special 
      assistant to the Laboratory Director, prepared statement of    43
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
        Briefing memo............................................    11
        Prepared statement of....................................     3
    Kadak, Andrew, professor, Nuclear Science and Engineering 
      Department, Massachusetts Institute of Technology, prepared 
      statement of...............................................    49
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    17
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................     7
    Wells, Jim, Director, Natural Resources and the Environment, 
      Government Accountability Office, prepared statement of....    23


 THE NEXT GENERATION NUCLEAR PLANT AND HYDROGEN PRODUCTION: A CRITICAL 
                             STATUS REPORT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2006

                  House of Representatives,
              Subcommittee on Energy and Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:29 p.m. in 
room 2154, Rayburn House Office Building, the Honorable Darrell 
Issa (chairman of the subcommittee) presiding.
    Present: Representatives Issa, Watson, Kucinich.
    Staff present: Larry Brady, staff director; Lori Gavaghan, 
legislative clerk; Tom Alexander, counsel; Dave Solan, Ph.D., 
and Ray Robbins, professional staff members; Joe Thompson, GAO 
detailee; Shaun Garrison, minority professional staff member; 
and Cecelia Morton, minority office manager.
    Mr. Issa. A quorum being present, this hearing of the 
Government Reform Subcommittee on Energy and Resources will 
come to order.
    Nuclear power is enjoying a global resurgence because of 
the environmental benefits and the expected growth in demand 
for electricity, and I might say, hydrogen. In the United 
States, there has also been an interest in building new plants 
because the current fleet of reactors is aging and the 
electricity demand is projected to rise 40 to 50 percent by 
2030.
    The Next Generation Nuclear Plant is part of the Federal 
Government effort to advance commercial nuclear reactor design 
beyond the current generation that is being deployed around the 
world. Additionally, NGNP--although sometimes it is easier to 
say Next Gen--is a key component of the administration's plan 
to develop the ``hydrogen economy.'' An important purpose of 
the advanced nuclear demonstration plant is to produce hydrogen 
on a large scale.
    Congress has given the plant a ``drop-dead date'' of 
September 30, 2021, for construction and the beginning of 
operation. The Department of Energy seems to be following a 
schedule that will cut it close to that deadline, and I might 
say on the record, 2021 would have been a date far further in 
the future than I would have shot for. After all, it took less 
than 10 years to put a man on the moon. Independent advisory 
panels and task forces have criticized DOE's schedule as being 
too slow; and too slow to be used by the private sector, too 
slow not to die a slow death from the lack of political 
support.
    Of particular concern for Next Gen projects is the 
development of a number of technologies that will ensure 
project milestones are met and construction will be completed 
on schedule. Even meeting the time table does not provide a 
guarantee that the demonstration plant will not have been 
overtaken by other commercial technologies that may be 
developed sooner.
    In addition, delays in meeting milestones will call into 
question the continued support for the Next Gen, considering 
other nuclear priorities, such as the Nuclear 2010 and Global 
Nuclear Energy Partnership programs that require a considerable 
Federal financial backing.
    Today we will hear from the Government Accountability 
Office regarding an assessment that it prepared at my request. 
We will also hear from a representative of the Idaho National 
Laboratory, where much of the R&D is being done today. Last, we 
will hear from a professor at MIT who is a former CEO in the 
nuclear industry and has a great deal of knowledge regarding 
advanced reactor design.
    Last to put on the record before I yield to the ranking 
member, also a Californian, is that in the last few weeks our 
Governor in California has set an ambitious plan for reducing 
the carbon footprint in California. It is this Member's 
considered opinion that you cannot reduce the carbon footprint 
if we retire the nuclear reactors that today are putting out 
zero emissions in California, so we in California have a 
particular interest in Next Gen nuclear.
    With that, I would yield to the ranking lady for her 
opening remarks.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Mr. Chairman, thank you for convening today's 
hearing to discuss this very critical project that can play a 
major role in shaping the future of America's energy use and 
production. All of us are aware of the importance of nuclear 
energy, and I hope that our witnesses today will update us on 
the progress of the Next Generation Nuclear Plant project and 
tell us if the goals in completing the project are being met.
    There are several concerns as to whether or not this 
project is on track to meet its 2021 deadline for completion. 
In a recent GAO study it has come to the committee's attention 
that there are several technological challenges in completing 
the NGNP and whether the technologies developed will meet the 
needs of the private sector.
    GAO also found that the project's initial research and 
development results indicate that the likelihood is slim that 
the project will be able to stay on schedule, considering the 
amount of research and development that still needs to be done, 
and this presents a problem. This committee's job is to conduct 
oversight on Federal spending, and we must ensure that our 
projects, including this one, are conducted in an expeditious 
and profitable manner that benefit the American taxpayer. The 
public should be secure in knowing that we do meet deadlines in 
the Federal Government, and when we don't we have a viable 
explanation as to why or why not a deadline was not met.
    Every April 15th taxpayers are required to file their taxes 
or they will face a penalty unless they explain why they need 
an extension. Shouldn't that same accountability be held on the 
Government when conducting business?
    So, Mr. Chairman, I again want to thank you for your 
leadership in bringing this issue before the subcommittee, and 
I am confident that our discussion today will yield us some 
definite answers on the progress of the Next Generation Nuclear 
Plant. I hope that the findings of this GAO report will be of 
benefit to all of the researchers and scientists involved to 
make this endeavor a success.
    I yield back, Mr. Chairman.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. I thank the gentlelady, and I ask unanimous 
consent that the briefing memo prepared by the subcommittee 
staff be inserted into the record, as well as all other 
relevant materials.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. With that I would yield to the gentleman from 
Ohio, who is not without some familiarity on nuclear power, Mr. 
Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman. Of course, with that 
in mind I will be offering a slightly different perspective, 
but I want to thank the witnesses and I also want to thank the 
Chair for his dedication on energy issues. This committee has 
done some very important work, and it has been because of the 
dedication of the chairman. I just want to let you know how 
much we appreciate it, Mr. Chairman.
    A hydrogen infrastructure is a revolutionary technology. It 
can power our transportation, heating, and electricity needs 
because hydrogen is so easy to transport, store, and convert by 
way of fuel cells. These qualities allow renewable technologies 
like solar and wind to supply the majority of the energy 
demanded by our Nation. There is much promise in truly 
sustainable hydrogen energy distribution system. To achieve the 
benefits of less dependence on foreign oil, clean air, and a 
better future for our children, the hydrogen system must strive 
for sustainability and replace the polluting fuels we depend on 
today.
    Now, a nuclear plant designed to generate hydrogen I 
believe is antithetical to a sustainable energy system. The 
advantages of a hydrogen economy are substantial, but to reap 
all the advantages we desire I think that hydrogen production 
must come from renewable sources. Anything less and we will 
have spent significant taxpayer dollars, questionable gain.
    The notion of using nuclear power to produce hydrogen looks 
like an industry attempt to just take more tax dollars for 
nuclear subsidies. We all remember that existing nuclear power 
plant technology was heavily subsidized in the last century, 
and they are continuing to eat up those subsidies today.
    Between 1948 and 1998 the Federal Government spent $74 
billion on nuclear power research and development, the majority 
of Federal dollars spent on energy supply R&D during this time. 
To me, this idea of connection between a hydrogen 
infrastructure and nuclear power amounts to kind of a 
greenwashing to prop up the nuclear industry. Nuclear power is 
not safe, and the wastes generated create an environmental 
challenge that this country continues not to have an honest 
answer to.
    I want to remind this committee about Davis-Besse. This is 
why I have a particular concern and an expertise. It is a 
nuclear reactor upwind from my hometown in Cleveland, Ohio. 
This nuclear reactor was shut down because of a large cavity 
the size of a football discovered in the top of the reactor 
wall. The utility, First Energy, unfortunately knowingly 
avoided mandatory inspection cleanings, would have prevented 
this near-miss. Instead, they chose to protect their profits 
and run their reactor dangerously close to disaster.
    Now, I am not going to confuse First Energy with the rest 
of the nuclear industry, but it has to be said that the NRC, 
instead of protecting the public, chose to protect the 
financial interests of First Energy. They repeatedly took 
minimal actions to prevent this near disaster, punish the 
utility for its negligence, reform its own operations, and 
place safety first. The NRC Inspector General found the NRC 
chose to protect the financial impact on First Energy rather 
than force compliance with safety regulations.
    After the shutdown of Davis-Besse the NRC released the 
report that documented its lessons learned. The report made a 
few recommendations as to how the NRC might avoid future 
incidents like the corrosion problems at Davis-Besse. Since the 
release of the final report, a draft lessons learned report 
surfaced that contained several far-reaching recommendations 
that would, in fact, make a real difference in nuclear power 
plant safety, because you can't talk about the relationship 
between nuclear power and hydrogen infrastructure unless you 
look at the underlying safety issues. But to avoid costly 
regulation on the industry, those recommendations that are 
mentioned didn't even make the final report.
    I don't have any doubt that a nuclear power plant producing 
hydrogen will face a similar regulatory system designed to 
protect industry profits, and such a plant will pose an 
unacceptable risk to the public.
    Mr. Chairman, I just want to mention that I think it would 
be important for this subcommittee, along with the other 
wonderful work it does, to examine the complete and total 
failure of the NRC to regulate the current reactors. The Davis-
Besse incident showed a fundamental flaw in how our Nation 
regulates reactors. It is a failure in every rung of the 
bureaucratic ladder.
    We also must acknowledge that nuclear reactors produce 
highly radioactive waste the United States is attempting to 
bury in Yucca Mountain, Nevada. No matter how deep you bury it, 
no matter where you bury it, this waste is going to re-emerge. 
Basic geology dictates that over a million years the Earth 
shifts and water moves and this waste will re-enter our 
environment. I have no doubt the nuclear waste generated to 
create hydrogen will have no responsible solution, either.
    Mr. Chairman, the lesson we learned here is that the United 
States should question the taxpayers' money that is being spent 
for nuclear industry and should question a plan that could end 
up trashing our environment to prop up a dangerous industry. 
Hydrogen production should be moved forward from sustainable 
sources. It will be more cost effective, better for the 
environment, and safer for our citizenry.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Issa. Thank you, Mr. Kucinich. I would second one very 
important portion of what you said, and that is that I look 
forward to the day in which renewables represent a substantial, 
if not all, of our production of fuels, both for fixed and 
mobile through hydrogen.
    With that I would like to welcome today our guests. You are 
more than guests. We hopefully, though, will treat you as well 
as guests. We have Mr. Jim Wells from the Government 
Accountability Office; Mr. Phil Hildebrandt from INL; and Dr. 
Andrew Kadak from MIT. I look forward to your testimony. As all 
guests here, I would like to begin by asking you to rise for 
the administration of an oath. It is always good to have people 
with Ph.Ds. They know to raise their right hands without being 
asked.
    [Witnesses sworn.]
    Mr. Issa. The record will show all nodded yes.
    Mr. Wells, we will kick off with you. We normally give 5 
minutes. Is that going to be sufficient for you to summarize 
your written testimony?
    Mr. Wells. Yes, sir.
    Mr. Issa. All of it will be placed in the record. Great. 
The lights will show you the time remaining, and we only ask 
that you respect the light, not that you stop the instant it 
turns red.
    Mr. Wells. Fair enough.
    Mr. Issa. Thank you.

 STATEMENTS OF JIM WELLS, DIRECTOR, NATURAL RESOURCES AND THE 
      ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; PHIL 
 HILDEBRANDT, IDAHO NATIONAL LABORATORY, SPECIAL ASSISTANT TO 
 THE LABORATORY DIRECTOR; AND ANDREW KADAK, PROFESSOR, NUCLEAR 
SCIENCE AND ENGINEERING DEPARTMENT, MASSACHUSETTS INSTITUTE OF 
                           TECHNOLOGY

                     STATEMENT OF JIM WELLS

    Mr. Wells. Thank you, Mr. Chairman and members of the 
subcommittee. GAO is pleased to participate in this oversight 
hearing.
    We are releasing today, Mr. Chairman, as you requested, our 
GAO report on this particular project. It is available on the 
GAO Web site. You also asked us to describe the progress and 
the status of DOE's attempt to deliver a $2.4 billion R&D 
project that will build and demonstrate an advanced high-
temperature nuclear reactor that DOE plans to link to a new 
hydrogen production plant. The report, itself, describes the 
project, the players, and the intended purposes.
    You held a hearing last year, Mr. Chairman, and heard 
testimony from DOE and others about where they were, their 
efforts, their progress to date, and their future plans. Two 
separate, independent groups have since reviewed the project 
plans and have offered suggestions and recommendations. This 
report gives you and the Congress a third assessment of where 
the NGNP project is.
    Here are our quick findings. DOE has budgeted $120 million 
so far from 2003 to 2006. This breaks down to about $80 million 
for the reactor, $40 million for the hydrogen product side 
system. Overall projections are that this would break out about 
$2 billion for the reactor and $300 million or so for the 
production of hydrogen.
    DOE has laid out a timeline schedule, as you can see on the 
graph that we give you here on the left. The chart starts in 
2006, ends in 2021. It proceeds through R&D testing, proof of 
concepts and capabilities, NRC licensing strategy by 2008, 
moves into 2011 design, construction start by 2016, and startup 
by 2021.
    Among the many stakeholders in this process, Mr. Chairman, 
there are controversy, disagreements, significant technology 
organizational funding, and unknown challenges to completing 
this almost 20 year effort.
    First, let me say that the people that we encountered in 
this audit who were working on this project appear to believe 
in the goals and the need for this project, but they do share 
cautious skepticism as to whether it will continue to make the 
cut and advance to the end in 20 years. DOE's current R&D 
approach we would characterize as trying to advance the science 
of building a new Generation IV advanced reactor that has high-
end, very-high-temperature capabilities to achieve superior 
efficiency in terms of fuel use and of heat transfer 
capabilities to allow magnitude improvements in the economical, 
commercial production of hydrogen. What we are talking about is 
designing something that will potentially double today's 25 
percent efficiency of producing hydrogen.
    This effort ties closely to the administration's goal of 
transitioning to the future of a hydrogen economy. Early R&D 
results have been favorable, especially as it relates to fuel 
testing, but most of the important R&D remains to be done.
    The Idaho National Lab, which you will hear from today, who 
has the designated lead and the location for the building of 
this full-scale reactor and a hydrogen production plant, are, 
in fact, gung-ho and anxious to deliver the product as asked 
for. The program and management team that we talked to at the 
working level at DOE, they share, too, a passion to meet the 
future energy challenge driving this particular project. This 
is the good news, Mr. Chairman; however, there is bad news.
    Between the times DOE last testified before you, they 
reported to you they were making steady progress. The priority 
for funding nuclear energy has changed, resulting in this 
project going a little slower. Today, first priority in the 
Department of Energy is Nuclear Power 2010. Second is Global 
Nuclear Energy Partnership [GNEP], second priority. And the new 
generation, or Next Generation, as you refer to this project, 
has fallen to third place in terms of their priorities. The 
competition today is scarce for the existing R&D dollars.
    Getting the private sector, what we call the industry, the 
end users, the vendors, the utilities, and the people that are 
actually going to use the hydrogen, getting these people 
involved has been slow in this project, and DOE is just now 
beginning to get that started. Suggestions generated from the 
earlier two independent assessments that I referred to earlier 
have looked at the DOE project with some suggestions for 
changes. DOE has agreed to some of those changes, made some 
changes, but DOE has not made all the changes, particularly as 
they believe that the stated path is better, in their opinion.
    For example, you are going to hear today about the belief 
that the current schedule needs to be accelerated, with a 
quicker completion before 2021. Those that support acceleration 
say you stand the risk of losing commercialization and private 
sector buy-in. DOE says that doing so presents unacceptable 
risk to them and increases the technical challenges, as well as 
not keeping with the existing Department's current funding 
priorities.
    We are weighing in after doing this audit, Mr. Chairman, in 
a belief that we would agree that it may be too soon to 
accelerate, in our view, to support that decision today. Our 
rationale is based not so much on the science but more on the 
management concern that we have in terms of DOE's ability to 
get it right.
    To speed up the project today narrows the plan R&D and 
reduces the known unknowns. Moving forward could result in a 
re-work if future research results are not supporting the 
decisions that have been already made. DOE has only just now 
moved to get involved in the industry, which is really going to 
be critical to knowing what type of production facilities do 
they want, do they need, and what are they going to be willing 
to invest in. DOE doesn't have those answers yet.
    Finally, GAO has documented a long history within the 
Department of Energy regarding problems in managing large 
projects. Their poor management skills have been on a high-risk 
list for over 16 years. The risk taking this path to accelerate 
is further elevated by the fact that the DOE Nuclear Energy 
Office that has responsibility for this project has no 
experience in managing a project of this size and complexity. 
There might be a time later to make this critical path change 
as DOE gets further into the schedule.
    Mr. Chairman, I want to conclude. My time has expired here. 
This, to us, is the highlights and the lowlights, if you will, 
of what we found.
    I want to commend this committee in holding these hearings. 
As a Nation it is clear we need energy. We need more energy. We 
need environmentally responsible ways to meet this energy need. 
How we can use nuclear power in the future deserves the 
Congress' attention.
    On a personal note, Mr. Chairman, I want to say, having 
testified before you many times on energy issues, I am retiring 
from Government service after 37 years and I really appreciate 
your interest and your committee's interest in government 
reform with quality oversight.
    With that I will conclude and answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Wells follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Jim, I thought you were going to stay for a full 
career. It is just not right for a young guy like you to 
consider retirement. With your expertise, it is very likely to 
pay better than your work did, but congratulations on 37 years.
    Mr. Wells. Thank you, sir.
    Mr. Issa. That is a wonderful period of service.
    Mr. Wells. Thank you.
    Mr. Issa. Mr. Hildebrandt, I don't think you can equal 
that, but give it a try.

                 STATEMENT OF PHIL HILDEBRANDT

    Mr. Hildebrandt. I can perhaps say I might be older.
    Mr. Issa. I understand that you and the Admiral----
    Mr. Hildebrandt. Grossenbacher?
    Mr. Issa. Yes, you taught him everything he knew, right?
    Mr. Hildebrandt. I would never admit to that.
    Mr. Issa. OK.
    Mr. Hildebrandt. He would not, as well. Rickover did teach 
me much of what I know, however. I did work for him for many 
years.
    Mr. Chairman and members of the subcommittee, it is an 
honor to present the views of the Idaho National Laboratory 
regarding progress being made on the schedule for the Next 
Generation Nuclear Plant and plans to ensure commercial 
viability of the project and participation of the private 
sector.
    I am a consultant to Admiral John Grossenbacher at the 
laboratory. I have a title, which is in the formal testimony. 
It is a long one. I have worked for over 38 years in the 
nuclear industry, starting in the naval nuclear propulsion 
program for Admiral Rickover, as the chairman mentioned, 
subsequently in the commercial electric power generation 
industry, and most recently then within the Department of 
Energy, itself.
    I am and we at the laboratory are encouraged by the recent 
resurgence of interest in nuclear technologies by the U.S. 
commercial power generating industry, as indicated by announced 
plans to seek licenses from the NRC to construct and operate 
new nuclear plants.
    The Idaho National Laboratory, under the leadership of its 
director, John Grossenbacher, is playing a central role in this 
nuclear renaissance and in the future of nuclear energy, 
including the Next Generation Nuclear Plant, the subject of 
today's discussion, and the Global Nuclear Energy Partnership.
    The subject of today's hearing, the Next Generation Nuclear 
Plant, is an essential part of the future of nuclear energy, in 
our opinion. The demonstrated success of the commercial nuclear 
industry in reliably producing electric power using nuclear 
technology in the United States and throughout the world 
provides the foundation upon which these improved nuclear 
technologies can be extended to other energy sectors, not just 
hydrogen.
    I want to make sure we think of this perhaps more broadly. 
This is what we call in the engineering field a process heat 
machine. The importance is very high temperature, processed 
heat which can be used not only to produce hydrogen but to be 
used complementary with coal gassification and extracting 
petroleum products from oil and tar sands and for direct use in 
many chemical processes.
    In doing so, we have the important contribution to reducing 
the carbon footprint, if I may, of the chemical industry that 
exists today. So this is a very broad application, hydrogen 
being one of the areas of focus; however, much broader than 
that in total.
    The marketplace for the high-temperature processing and the 
hydrogen exists today. If we had a plant of this technology to 
provide to the commercial industry, they would be able to 
compete in an economic competition with hydrogen production by 
other means today, and by doing so reduce the extent of natural 
gas that we use for such purposes and better use the natural 
gas and other such products elsewhere for their unique 
capabilities.
    The key aspect of initiating a project such as the Next 
Generation Nuclear Plant is to obtain the commercial energy 
industry interest because, in fact, it is in the end a 
commercial venture.
    Rather than take the approach of asking government to bring 
this along to its completion, we are now taking the approach, 
with the facilitation of the Idaho National Lab, to bring 
together a public/private consortium. In doing so, that public/
private consortium shares the risk with the government in the 
development of these technologies. This is consistent with the 
Energy Policy Act of 2005 and the requests within that act.
    The steps that we are currently taking and have just 
completed--preparing a credible business strategy and project 
plan and beginning the development of the commercial alliance 
of major end users and technology developers--there is a core 
of those today which are traditional in the nuclear energy 
world in terms of equipment vendors, nuclear system suppliers, 
and end users. We are now going to broaden that into other 
sectors because this particular plant goes well beyond the use 
for, as I mentioned hydrogen, as well into other areas where 
the larger marketplace of the petroleum industry, such as the 
petroleum industry, fertilizer industries, and other uses for 
this type of energy.
    To address the item that Mr. Wells mentioned, which I share 
his concern with regards to past experience in the Department 
of Energy in managing such ventures. I think there is an 
unfortunate trail of problems in the past.
    We are approaching this as a commercial venture. This 
public/private partnership that I have described in brief will 
have direct involvement of major commercial end users, 
technology developers, nuclear system suppliers, and equipment 
manufactures in what we are calling the Alliance; will 
implement commercial contracting vehicles between the Alliance 
and the national and international laboratories for the 
research and development; will use contemporary commercial 
project management practices for the design, licensing, and 
construction of the demonstration prototype.
    So our emphasis is on the commercial sector, and then 
subsequently, upon building it, we will operate it by an 
experienced commercial nuclear operator. So we share the 
concern and we are addressing the concern from a commercial 
sector standpoint.
    Addressing the item specifically of are we proceeding down 
a schedule which will achieve the result that we wish in a 
timeframe, the commercial sector, as has been consistent with 
other recommendations, would like to have this prototype 
demonstration that supports commercialization completed sooner 
than 2021. The target for the technology development would be 
in the timeframe of 2016 to 2018. In achieving that, it is a 
choice of a balance between the technologies that you choose to 
achieve the performance that is acceptable to the commercial 
sector to reduce the risk of completing it in the timeframe, so 
there is a choice--choice of technology, choice of schedule, 
choice of costs.
    The commercial sector would drive this toward achieving 
success in the 2016 to 2018 timeframe. As you know, in the 
commercial sector such targets are not taken lightly. This is 
very important in the financial realities.
    I will stop there since the red light has gone on. I thank 
you for your time and attention.
    The Idaho National Laboratory fully supports the 
development of these technologies for the Next Generation 
Nuclear Plant, and the targeted energy needs in the United 
States and the world make these technologies an essential part 
of the overall development and strategy for nuclear energy.
    I thank you.
    [The prepared statement of Mr. Hildebrandt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you.
    Dr. Kadak.

                   STATEMENT OF ANDREW KADAK

    Mr. Kadak. I thank you for the invitation.
    First of all, I want to make sure that you understand that 
I am speaking here as an individual, not representing MIT or 
the nuclear engineering department.
    You have already mentioned my background relative to being 
a past nuclear utility operator and servicing of the light 
water nuclear industry as we know it, but, in case I run out of 
time, I would like to answer your questions.
    First, I agree with you that we are way too far in the 
future with 2021. I think it can be done much earlier. 
Countries such as South Africa and China are doing it. There is 
no reason why we cannot. I agree with your moon analogy.
    Second, are the goals being met? Clearly not. As you saw in 
my testimony, the budget requests by the DOE for the NGNP are 
woefully inadequate, even for their 2021 date. I think they can 
be accelerated. I also believe that there is a way to 
accelerate not only the project but also the amount of R&D 
necessary to bring this project to fruition.
    As you may remember, this project was started as a 
Generation IV project called a very high-temperature reactor. 
The commercial industry and Mr. Hildebrandt headed up a 
commitment called the International Technical Review Team, and 
they had several recommendations. The technical goals set for 
the VHTR were way too excessive, the timing was far too in the 
future, and what we have done independently is look at what do 
we really need to do to bring the Next Generation plant to 
fruition, not the very-high temperature reactor to fruition. A 
thousand degrees centigrade is a lot different than 850 and 900 
centigrade, and that is sufficient to make hydrogen, certainly 
on a demonstration scale.
    So what you will see in my testimony is, I took a thorough 
look at what the DOE was estimating for their cost, their R&D 
program, had that reviewed by people who are actually building 
their pebble bed reactors, and this could also apply to the 
General Atomics prismatic reactor, and we scrubbed those 
numbers and said, ``what would it cost to build this particular 
plant on a schedule that looks like 2015, 2017.'' We were able 
to cut about $1 billion off that number. It is a huge amount. 
For that amount of money, which basically is for NGNP and 
hydrogen at $1.2 billion total cost, we could get an operating 
plant, probably get it licensed by the NRC as a test facility 
that could be commercialized once demonstrated.
    Those are, I think, the two questions that you had.
    In terms of oversight, absolutely. I think what you will 
see in the funding profiles is it is desperately needed to make 
sure that the funds are provided.
    Relative to Mr. Kucinich's comments about renewables, I 
strongly suggest there is a book that just came out by William 
Sweet entitled, ``Kicking the Carbon Habit.'' It is a very 
informative, very helpful book that takes a very practical look 
at our energy technologies and the imminent crisis that we are 
facing in terms of global climate change. That has changed my 
opinion about the timing of projects such as this.
    So I think I got pretty much everybody's main concerns 
identified. Now to my testimony, which hopefully you all will 
read.
    The key issues I think for us is the process of getting the 
industry involved. Mr. Hildebrandt is working on trying to get 
an alliance together, which I think is a very important goal. 
Some time ago I proposed with industry a recommended approach, 
which was a funded competition to develop conceptual designs 
for the NGNP and also the hydrogen plant. Competing teams would 
participate, with ultimately a down-selection that would be 
based on the mission goals, the costs and schedules, and their 
capability to deliver the product. Then that team, whether it 
be a General Atomics team or Westinghouse team or AREVA team, 
would then be charged with building this plant, consider it an 
engineering project, not a science project.
    Clearly there is going to be some R&D that is going to be 
needed to get this thing done. The Idaho National Lab will play 
a key role, and hopefully universities, as well. But, there is 
a lot of R&D being done internationally in China and in South 
Africa that was very helpful and supportive of the kind of 
thing we want to try to do here.
    So we believe, at least I believe, that we can get this 
project done within 2015--let's just say within 2017, within 
the same time lines as Mr. Hildebrandt is talking about--but an 
approached that is focused and phased.
    I would like also to address what I could call the chicken 
or the egg question. Where is this industry that is supposed to 
rise up and support this particular NGNP? Well, the industry is 
very fragmented, as you know. If you start saying let's make it 
the utilities, utilities don't care. All they want to do is buy 
power stations or buy hydrogen plants and run them, so they are 
not going to be developers, and they are not developers.
    If you go to the nuclear steam suppliers like Westinghouse, 
General Electric, where they used to invent new technologies, 
but they haven't had an order in 30 years. Their resources and 
capabilities to put something like this together, put $1 
billion on the table, is just not going to happen. Then, as you 
mentioned, the hydrogen producers, you know, they are quite 
fine with making hydrogen with steam methane reforming, but the 
price is very high, the supply is going to get very tight, and 
they don't want to do anything with nuclear. Then you get the 
hydrogen users and they say, I just want to buy the product. I 
don't want to get involved with all of this nuclear stuff or 
even more complicated technologies.
    So there is no industry there, which is why I think this 
Next Generation Nuclear Plant, with not only the hydrogen 
mission but the process heat mission, oil recovery--we have 
done a lot of oil sands work--ought to be a national strategic 
project. Stop playing the games about who is going to put up 
the money first. It is a national strategic project, and if you 
read that ``Kicking the Carbon Habit'' book, you are going to 
be convinced that it is vitally important for this Nation and 
perhaps for the world.
    I think I am done. Thank you very much for your time.
    [The prepared statement of Mr. Kadak follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you.
    Dr. Kadak, I will kick off a little bit of the questioning.
    Mr. Kadak. Yes.
    Mr. Issa. The figures I was given that come from the 
Nuclear Energy Institute, existing nuclear plants cost about 
$0.168 cents--call it 1.7 cents--per kilowatt hour of 
electricity. Coal costs about 1.9. Existing nuclear plants pay 
1/10th of 1 percent for the construction and maintenance of 
Yucca. Coal plants don't pay anything for the acid rain. They 
don't pay anything for any of the other damage to the 
environment, and certainly they don't pay for the carbon 
footprint. Natural gas, my favorite fuel in California--every 
new plant is natural gas can cost up to 5 to 7 cents, depending 
on the market for natural gas. Yes. We pay that in California 
for a big chunk of what we have, and I am very thankful that we 
have both nuclear and hydro to offset that, along with some of 
our renewables.
    The estimate for III-plus, what we are clearly going to be 
making before we make Next Gen, is that they are going to run 
about 4.6 cents per kilowatt hour; however, clean coal is 
estimated at 5.1 cents, and natural gas 10 years from now 
clearly ain't going to be cheaper.
    If the Federal Government takes the number of kilowatt 
hours that we expect to produce with nuclear and puts $5 
billion on the table and says we want to recover at a rate of 
2/10 or 3/10 of a cent on our investment, from a practical 
standpoint by the time that you have seven or eight reactors, 
aren't you going to recover that in a relatively short period 
of time and still be supplying for less than the cost of coal 
with all of its inherent damage to the environment and less 
than the cost of natural gas, a resource that we are presently 
importing at great risk because of where it comes from?
    Mr. Kadak. It is hard to do those numbers quickly, but I 
think the bottom line----
    Mr. Issa. We will settle for nuclear, even if Next Gen is 
as expensive as III-plus, has a cost savings over fossil fuels 
today in our estimates. Unfortunately, you don't have the $5 
billion to get to market.
    Mr. Kadak. Don't have the money, but part of this proposal 
would be a payback to the government for whatever they have put 
on the table for the NGNP through revenues generated by 
electric production or hydrogen production. So the idea is not 
to just make it a complete subsidy, as Mr. Kucinich suggests, 
but it is an investment that you have to make and can make and 
get paid back for.
    Mr. Issa. So your position, for the record, is that----
    Mr. Kadak. Yes.
    Mr. Issa [continuing]. If the Federal Government invests it 
can recover its investment, either based on your assessment or 
based on the numbers that I flashed around hoping that you 
could keep them all in your head?
    Mr. Kadak. Yes. The investment in this technology will have 
a payback that the government ought to be able to get back from 
that particular number.
    Mr. Issa. Last for you, Mr. Kadak, the difference, the 
compromise between, let's say, an 850C and a 1,000C reactor, 
do we yet have an appreciation for, one, the efficiency, the 50 
percent efficient utilization of the source material. And, two, 
how that would affect the sort of Yucca deposits, because I, 
for one, have been very supportive of Next Gen because of the 
anticipation that we are going to be dramatically reducing what 
we have to put into long-term storage and particularly, I know 
with General Atomics' system and some others, their ability to 
burn plutonium--actually burn it not for disposal but burn it 
for fuel--both of which reduce what I feel we would have to 
leave in for a very long period of time in, as Mr. Kucinich 
said, the million-year-water-will-happen situation.
    Mr. Kadak. Clearly the efficiency advantage of high-
temperature reactors over, say, light water reactors is about 
50 percent, so just on that basis, alone, you would see 
advantages in the repository performance.
    But I think the key point is really from the standpoint of, 
``Can we make this thing work?'' The answer is we believe we 
can because there is a pebble bed reactor, as an example, 
operating now in China. There is a pebble bed reactor in 
licensing and final design in South Africa. They are not doing 
this without any understanding of its cost and its schedules. 
The thermal efficiencies that people are now talking about in 
terms of between 850 and 1,000 degrees relative to the hydrogen 
production efficiency is very small, and the material 
challenges are huge to be able to get materials that can 
withstand those temperatures, and not needed, in my opinion and 
the ITRG's opinion.
    Mr. Issa. OK. I see a head shaking, so you would say the 
sweet spot may very well be at 850C, not 1,000C, from a 
standpoint of cost/benefit?
    Mr. Hildebrandt. Yes, sir, that is correct. I would expect 
the difference in those temperatures, in terms of overall 
efficiencies Dr. Kadak was mentioning, was about 3 percent. 
That is the difference.
    Mr. Issa. So we are buying a moon shot instead of the X-
craft?
    Mr. Hildebrandt. Yes, sir.
    Mr. Issa. I can certainly relate to the difference between 
Burt Rutan's cost versus benefit. He got into space for a whole 
lot less than we did.
    Mr. Hildebrandt. That is right. I think that is a good 
analogy for this discussion. How do we do it from a practical 
standpoint with the least technology development risk and yet 
get as close to our performance goals as we desire?
    Mr. Kadak. And the other advantage would be, once built, it 
becomes the research platform for going to more advanced fuels, 
higher temperatures. You can't, as you said, pick 1,000C and 
say if we can't build it because we can't find the materials we 
should stop. We should build what we can do and then develop it 
further.
    Mr. Issa. Jim, you are not getting a freebie on this.
    Mr. Wells. Let me jump in here and say we are talking about 
the DOE mission and goal as to design and construct a reactor 
that was tailored to develop a maximum efficiency production 
facility that could produce hydrogen that could make the 
difference for commercializing the success of the hydrogen. If 
they were to lower their standards and lower temperatures and 
reduce the efficiency gains, you may end up having to try and 
compete in a marketplace at $3 equivalent gallon of gasoline. 
If they continued at the high temperature and gained the 
efficiency gains that they believe the R&D would support and 
they are able to develop the materials that can withstand the 
heat for 60 years, you may be in a situation where you are 
developing hydrogen at $1.50 equivalent, which in turn makes it 
that much more attractive to the commercial industry to compete 
in a marketplace that everybody is trying to bring the lowest-
cost product to the table.
    So philosophically you are looking at what they are trying 
to do in terms of designing high-end versus somewhere in the 
middle that may jeopardize commercialization in the future.
    Mr. Issa. So, to paraphrase you, Mr. Wells, you are totally 
supportive of their position if they can make it pencil out in 
a way that supports that position, and you are not supportive 
of it if they simply would like to do it but it may jeopardize 
the viability of replacing natural gas as a source material for 
hydrogen, either for petroleum cracking or for a hydrogen-based 
economy?
    Mr. Wells. That is right. That is what they are competing 
against.
    Mr. Issa. OK. Gentlemen, I am going to wrap up by asking 
you to tell me when and how you are going to give me the 
penciled numbers in a way that this committee could participate 
in perhaps asking for a near-Earth orbit rather than the moon 
shot if that is all we need.
    Mr. Hildebrandt. Let me suggest how we are doing that, if I 
may.
    Mr. Issa. Please.
    Mr. Hildebrandt. In this commercial alliance that I 
mentioned, at every step the test is by the commercial world. 
Is it competitive and will it remain competitive into the 
marketplace? Approximately a year downstream, perhaps by about 
this time next year, the Alliance will have two things. One, 
presumably an agreement amongst several commercial end users 
that allows us to work with the government for its development; 
two, from a technical standpoint, as we just had this 
discussion, and a business standpoint, we will have chosen the 
design, to answer your question, that would be commercially 
viable, commercially competitive, and the lower-risk 
alternative, if I may. We already have projections of that. 
Over this next year there is preconceptual design work that is 
going on, about to be started here in the month of October, 
where we will be able to put the numbers on the table in a more 
confirmed manner than we can today. We are doing it on an 
estimate basis, best judgment today.
    Mr. Issa. OK. So you estimate, and I have to get re-elected 
and come back if I want to see it in proof form?
    Mr. Hildebrandt. Yes, sir, you certainly would.
    Mr. Issa. You have given me a goal.
    Mr. Kadak.
    Mr. Kadak. Yes. Could I just modify your analogy just a 
tad? It is like going to the moon or going to Mars. We can go 
to the moon. We have gone to the moon. The Chinese are going to 
the moon shortly. Relative to the differential inefficiency 
versus the thousand----
    Mr. Issa. But they have been celebrating the moon for a 
long time, so for them it is old hat.
    Mr. Kadak. But, relative to the differential inefficiency 
between 1,000 and 900 degrees, as Mr. Hildebrandt said, it is 1 
to 3 percent. That is not going to be the driver for cost 
differential between $3 and $1 a gallon.
    Thank you.
    Mr. Issa. Very good. I could do this all day, but the 
ranking lady has been very patient, so with that I yield for 
her questions.
    Ms. Watson. I think my question was just answered by Mr. 
Kadak. The difference between efficiency with the degrees is 
making the difference in the time it takes, and then this goes 
to Mr. Wells. You are nodding your head, so that is the answer. 
If we don't meet the deadlines, what will the cost be? Mr. 
Kadak says, you know, we just don't have the resources. So what 
would you say, Mr. Wells? You will probably be retired. When 
are you retiring?
    Mr. Wells. Maybe before I answer this question.
    Ms. Watson. No, after you answer the question.
    Mr. Issa. Do you want to take advantage of the 
congressional ability to hold people on active duty 
indefinitely? We have done that in the past, you know.
    Ms. Watson. What do you think, because what I am hearing, 
if I can just sum it up, is that yes, we can do it. We got to 
the moon, we can go on to Pluto maybe, whatever it is. And the 
difference in the time would mean resources, money. What is 
your estimation?
    Mr. Wells. Our position and why we were not supportive of 
acceleration, the dangers of acceleration to us was that you 
increase the project risk for success. There is potential for 
cost overruns. Rework has been huge in previous projects where 
we tried to start construction and start design faster before 
the research was actually done to come to the right decisions 
about whether it was going to work or not. Even DOE still 
believes that the technical challenges that exist to even build 
this type of reactor is going to take the entire time to 2021, 
and they are concerned about the technical challenges. I think 
if you do try to accelerate, the Congress has the 
responsibility to hold DOE accountable for delivering what they 
say they can deliver and good oversight.
    Ms. Watson. And I think the Congress then would have the 
responsibility for allocating the funds, and in a period where 
we have reduced----
    Mr. Wells. Absolutely.
    Ms. Watson [continuing]. The income to government by all 
these tax cuts, can we be realistic in our thinking that we can 
accomplish it within a meaningful amount of time? I heard you, 
Mr. Kadak, say that we don't have the money and we could do it, 
but it is going to take the resources. I don't see us providing 
that kind of priority on DOE and on the way we expend the 
taxpayers' funds any time soon because we have other 
priorities.
    Mr. Chairman, to you, it just kind of looks really dim for 
the future, at least for the tenure of Mr. Wells and probably 
for our tenure.
    Mr. Issa. I am not going to get into a malaise here, if 
that is what you are looking for.
    Ms. Watson. No, no, no. I am just making an observation 
because the problem is with the resources. Mr. Wells says we 
don't need to speed up and accelerate until we are sure it is 
safe, and that is going to take resources, a dedication of 
resources to be able to meet those goals, and I am just saying 
we have other priorities that we are dealing with within this 
era. I don't think any of us will be here by the time this 
project--I won't be here by the time this project reaches 
fruition. That is my observation.
    Thank you. I am going to have to leave. I have another 
committee going on right now. You can carry it from here.
    Mr. Issa. OK. I thank the gentlelady.
    I will just wrap up with one or two questions. I probably 
won't get into the 37 percent revenue increase we have 
experienced--no, spending increases over discretionary spending 
or the fact that we have a 30 percent reduction in the 
projected shortfall as a result of the huge rising revenues as 
a result of the tax cut. I will not get into that. I think that 
is important to stay away from for this committee. I won't 
mention it if you don't.
    You know, the one thing Republicans tend to do is they 
quote Kennedy on his tax cuts, and I won't do that today, 
either.
    In conclusion, I am very interested in followup and I would 
like the staff to be able to use the next few days to go back 
and forth over a couple of these items. One of them is as much 
base material for your projections of comparative hydrogen 
production cost and comparative electricity cost based on moon 
two versus Mars or other--yes, I am returning to the moon for 
less, or return to the moon for half the fuel, so to speak, 
versus Mars.
    I do also want as much new material as you can make 
available on where you see the technology challenges. I am a 
layman on this, but the difference between materials that hold 
up at 800-plus-C and those that hold up at 1,000C, it does not 
surprise me that we don't have materials to do that available 
for any length of time and that we need to develop those and 
that the thresholds could be hugely different. I would like to 
understand that difference.
    Last, the one that really gets me, is a rhetorical 
question, but, Mr. Wells, it includes you particularly. What if 
we get to 2015 and the French, the South Africans, and the 
Chinese are selling something that does the job and they are 
able to essentially take the market, the potential market, 
which is a 30 year or 40 year renewing market, away from us 
prior to that occurring, because today we are hoping to be 
putting in III-plus plants around the world, but, in fact, in 
2016, if they have an 800C product that can acceptably produce, 
let's say, hydrogen to be close to our Louisiana or other ports 
where we do refining, will they, in fact, eclipse us in those 
source locations?
    That is a rhetorical question of, ``is there a risk?'' I 
know this is a difficult risk for people to assess, but I want 
you to go down this road if you could for a few minutes here if 
you have time, but then further in writing, of what is the risk 
to not being on a path toward that product, even if that 
product is not the same product we are presently funding. And I 
might say we are spending $8 billion a month in Iraq today, so 
the idea that it is $1 billion dual path a Next Gen and a high-
temperature as two separate, distinct potential but parallel 
goals doesn't scare this particular chairman, even if the idea 
of writing the check would petrify me.
    I will give you each a chance to respond briefly, and then 
I would very much encourage you to respond at length.
    Mr. Wells. I am glad to jump in. It is clear. It is true 
that DOE is designing a unique product and they have set 
parameters and lowered the parameters from 1,000C to 950C and 
their goal is to generate, design, and have the capabilities to 
produce hydrogen at a very, very high temperature in a reactor 
that will allow commercialization at a price that the 
marketplace will pay, and it is going to take 20 years to get 
there. I mean, that is their stated goal and that is what they 
are moving forward on. There is no question about that.
    It is true that if the existing reactors that are 
available, whether it be in South Africa or China, pebble bed, 
or the prismatic in Japan or France, they are smaller scale. 
They are not of the full scale that the DOE is proceeding upon. 
And if they do bring to market something that would be 800C, 
there is that competitive environment where they will eat our 
lunch, so to speak, and question what are we going to do with 
the plant that we are bringing online 10 years later. No 
question about that.
    However, I would hang our hat a little bit on the fact that 
in Gen IV the stated goal is these are international partners 
and the United States will be a player in all the international 
development in terms of whatever future reactor comes online, 
so I am not so sure that competition is the word here if we, in 
fact, see the world more internationally as opposed to just 
within our borders.
    That would be a quick response to you.
    Mr. Issa. Thank you.
    Mr. Kadak.
    Mr. Kadak. I will always be happy to weigh in on that one.
    Let me just tell you a few words about China. MIT and 
Tsinghua University have a collaborative arrangement on the 
pebble bed reactor development. They have a commercial project. 
It is called a demonstration plan. With their demonstration 
plan as successful, and their scheduled commercial operation by 
2011 or 2012--and this is 190 megawatts of electric, which is 
smaller than the 600mw reference thermal or 300mw electric of 
the DOE--but this plant, if it is successful, will have a site 
of 3,600 megawatts of power, electric power--they are not 
looking at hydrogen yet--with 19 modules. That is real.
    Mr. Issa. That is three reactors of a typical size in 
America today?
    Mr. Kadak. Exactly. Three per building, if you will. In 
South Africa, again, they are going to a commercial 
demonstration fronted by the government, in large part, but for 
the utility, which is about 165 megawatts electric, certainly 
smaller than the 1,500mw French reactors or the 1,200mw or 
1,300mw American high water reactors. But the market may be 
such that smaller units added when the capacity is needed is 
better than building one big one which, if you lose, you have 
some serious problems.
    I was just in Finland looking at the EPR reactor being 
built there. They have to build a gas-fired power station to 
provide power should that reactor shut down. Think about that. 
It got perhaps a little bit too big for a particular nation to 
absorb that kind of capacity.
    Mr. Issa. That is a lot of peak power if you have to 
replace an entire nuclear plant.
    Mr. Kadak. But it is not the entire plant, but it is enough 
to keep the grid from collapsing when they lose it.
    So we have some very interesting issues. I do believe we 
are already behind. This schedule will make us further behind. 
Although our emphasis is on hydrogen and process heat 
applications, it doesn't take them long to figure out how to do 
that, either.
    Mr. Issa. You know, I don't want to add to your testimony--
I am not qualified to--but it is always interesting when Mr. 
Kucinich and I come to a common agreement on something. When he 
talks about wind-to-hydrogen, he is talking about electricity 
we produce and then use it with water to create hydrogen, so he 
is, in fact, doing what we would certainly be able to do with 
Next Gen nuclear equally well. I always remind that, that I 
believe in how we get to hydrogen with high temperature 
nuclear, but I also recognize that his proposal and why we get 
to hydrogen, if we simply get an unlimited supply of affordable 
electricity we still get to zero emissions hydrogen without 
cracking natural gas.
    Mr. Hildebrandt, you get the closing remark.
    Mr. Hildebrandt. Yes, sir. Just as an overall observation 
of the comments that were made earlier, nuclear power isn't the 
answer, alone. Coal gassification, carbon sequestration, 
renewables--all of it needs to be together because no one of 
them can handle our huge appetite for energy in the United 
States. These are complementary efforts that need to be part of 
a large, overall nuclear strategy--nuclear strategy, energy 
strategy more importantly.
    With regard to your specific questions on such things as 
costs, electricity, hydrogen, materials considerations, 
temperatures, I will refer you to a report and I will also 
provide it to your staff if you wish. It is called ``Design 
Features and Technology Uncertainties for the Next Generation 
Nuclear Plant.'' It was work that is referenced in the Energy 
Policy Act. It is the group that, as Andy mentioned, I chaired 
back 2 years ago. It answers most of those questions, but we 
will also update it for you and provide updated information 
based on what we know today.
    Regarding the risk of others getting ahead of us, if I may, 
in the simplest term, that is a very real risk. This is an 
international effort. However, at the same time we are 
emphasizing the need to rebuild the industrial infrastructure 
in the United States to handle such things as building large 
industrial facilities such as a nuclear power plant--not that 
solely, but such as that. We have lost much of that. It has 
gone overseas. Part of the intent of the Next Generation 
Nuclear Plant is to go after rebuilding those capabilities, 
even though it is in the international marketplace.
    The leveraging of the other gas-cooled reactor 
demonstration projects that have occurred is very important. 
Dr. Kadak mentioned a couple of those. He mentioned the current 
one with the pebble bed modular reactor in South Africa. We 
have also built two gas-cooled reactors here in the United 
States which approach the temperatures we are talking about 
here in Colorado and Peach Bottom. Is that Pennsylvania? I 
believe it is Pennsylvania.
    The work that has been done in Germany, as well, with a 
reactor called ADR, which I won't try to say the German name, 
and THTR, each of these demonstrations have been an important 
contributor to our understanding of gas-cooled reactor 
technology and allows us to take steps with confidence as to 
where we are going and how big the risk is. So our choices here 
are fairly well understood based on previous work that has been 
done and current work that is being done.
    I thank you.
    Mr. Issa. I thank you, and I would like to thank all of the 
witnesses for being here today.
    I will hold the record open for 2 weeks from this date so 
that you may forward your submissions and you may expand on 
your responses.
    With that, this hearing is adjourned.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
